XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Public: (619) 738-9000
Telephone: (619) 738-9137
Facsimile: (619) 645-2191
E-Mail: Annie.Fraser@doj.ca.gov

November 24, 2020

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

RE:

Dean Phillip Carter v. Ron Broomfield, Warden
Supreme Court of the United States, Supreme Court of the United States, Case No. 206310

Dear Mr. Harris:
Pursuant to Rule 30.4, I respectfully request a thirty-day extension of time, to January 14,
2021, in which to file the Respondent’s Brief in Opposition to the Petition for Writ of Certiorari
in the above referenced matter. This request is made for the following reason.
An extension of time would better enable preparation of a response that respondent
believes would be most helpful to the Court.
Petitioner’s counsel of record, Celeste Bacchi, has advised me that she has no opposition
to this request.
Sincerely,
/S/ Annie Featherman Fraser
ANNIE FEATHERMAN FRASER
Deputy Attorney General
For
AFF:pj/SD2020801729

XAVIER BECERRA
Attorney General

No. 20-6310

In the Supreme Court of the United States
DEAN PHILLIP CARTER, Petitioner,
v.
THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Annie Featherman Fraser, Deputy Attorney General, a member of the Bar of
this Court hereby certify that on November 24, 2020, three copies of the
APPLICATION FOR EXTENSION OF TIME in the above-entitled case were
mailed, first class postage prepaid to:
Office of the Federal Public Defender
Attn: Celeste Bacchi. Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, CA 90012-4202
I further certify that all parties required to be served have been served.

SD2020801729
82621721.docx

ANNIE FEATHERMAN FRASER
Deputy Attorney General
Office of the Attorney General
600 West Broadway, Suite 1800
San Diego, CA 92101
P.O. Box 85266
San Diego, CA 92186-5266
Telephone: (619) 738-9137
Counsel for Respondent
General Fund - Legal/Case Work

